IN THE SUPREME COURT OF THE UNITED STATES

BRAYAN GUTIERREZ-DIAZ,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Certificate of Service

I, Kristi A. Hughes, appointed to represent the petitioner under the Criminal
Justice Act, certify that on July 3, 2020, one copy of the Petition for a Writ of
Certiorari, the Appendix, and a Motion to Proceed In Forma Pauperis in the above-
captioned case were served by email to respondent's counsel, addressed as follows:

Noel Francisco, Solicitor General

SupremeCtBriefs@USDOJ.gov

Respectfully submitted,

July 3, 2020

 

Cardiff, California 92007
Telephone: (858) 215-3520
Counsel for Petitioner

12
